Order

/hP/Oe^d/pf - &

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

March 30, 2021

Chief Justice

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

161748

KUSHAWN MILES-EL,
Plaintiff-Appellant,

Justices

SC: 161748
COA: 352357

v
CHIPPEWA CORRECTIONAL FACILITY
WARDEN,
Defendant-Appellee.

On order of the Court, the application for leave to appeal the May 19, 2020 order of
the Court of Appeals is considered, and it is DENIED, because we are not persuaded that
the questions presented should be reviewed by this Court.

*

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of die order entered at the direction of the Court.
March 30,2021
b0322

Clerk

1

j\ff£a/J>;k A' I

O Neutral
As of: July 30, 2021 5:18 PM Z

Miles-EI v. Chippewa Corr. Facility Warden
Court of Appeals of Michigan
[

May 19, 2020, Decided
Docket No. 352357
Reporter
2020 Mich. App. LEXIS 3406 ‘
Kushawn Miles-EI v Chippewa Correctional Facility
Warden
Subsequent History: Leave to appeal denied by MilesEI v. Chippewa Corr. Facility Warden, 956 N.W.2d203,
2021 Mich. LEXIS 473, 2021 WL 1228100 (Mich., Mar.
30, 2021)
Prior History: Miles-EI v. Chippewa Corr Facility
Warden. 2020 Mich. Add. LEXIS 2762 (Mich. CL Add.
Apr. 14. 2020)
Counsel: [*1] KUSHAWN MILES-EL, Plaintiff, Pro se.
For CHIPPEWA CORRECTIONAL FACILITY
WARDEN, Defendant: LANGSCHWAGER H. STEVEN.
Judges: Stephen L. Borrello, Presiding Judge. Amy
Ronayne Krause, Brock A. Swartzle, Judges.
Opinion by: Stephen L. Borrello

Opinion

ORDER
The Court orders that the complaint for habeas corpus
is DENIED.
Is/ Stephen L. Borrello
Presiding Judge

End of Document

I

n

F

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CRIMINAL DIVISION
PEOPLE OF THE STATE OF MICHIGAN
Plaintiff,
Case No: 93-010422-01
Hon. Thomas E. Jackson

v.

KUSHAWN MILES,
Defendant.
OttDFR DENYING RELIEF FROM JUDGMENT
At a session of Court
held in the Frank Murphy Hall of Justice
in the City of Detroit, Wayne County,

JUN 11 2002

ON:
PRESENT: Hon. Thomas E. Jackson
Circuit Court Judge
Defendant moves this court for relief from judgment pursuant to MCR 6.500 et
seq. Defendant was convicted, following a jury trial, of first degree murder, MCL
750.316, two counts of possession of a firearm during the commission of a felony, MCL
750.227b, and assault with intent to do great bodily harm less than murder, MCL 750.84.
He was sentenced to life in prison for the murder conviction, to run concurrent with the
assault with intent to do great bodily harm conviction; and a two year term for the felonyfirearm convictions.
Defendant first alleges that defects in the warrant and return meant that the district
court never acquired jurisdiction over him for prosecution. This allegation is without

1

n
merit. A technical ministerial defect is not adequate grounds for reversing a valid
conviction. People v Twenty Five Thousand Five Hundred and Five Dollars and One
1986Ford, 220 Mich App 572 (1997); People v Barkley, 225 Mich App 539 (1996);
People v Myers, 163 Mich App. 120 (1987). The warrant, the amended information and
the return all conform to the requirements of the Constitution to acquire jurisdiction over
this defendant.
The defendant complains that the trial court refused to allow his trial attorney to
withdraw from representing him after the defendant filed a grievance against counsel for
failing to visit him while incarcerated to consult on the case.r An indigent defendant who
receives the appointment of counsel at the government’s expense is not entitled to an
attorney of his choice. People v Ginther, 390 Mich 436,441 (1973); People v Mack, 190
Mich App 1, 14 (1991). Although defendant's right to choose counsel is an essential
element of the Sixth Amendment right to assistance of counsel, this right is not absolute.
People v Daniels, 2002WL 77192 (Jan. 18, 2002); People v. Krysztopaniec, 170
MichApp 588, 598 (1988). Further, the defendant's right to alternate counsel is balanced
with the public's interest in the prompt and efficient administration ofjustice in order to
determine whether the defendant’s right to choose counsel has been violated. People v.
' Krysztopaniec. A trial court’s denial of substitute counsel is reviewed for an abuse of
discretion and will not be overturned absent such abuse. People v Daniels, supra.
The trial court must consider the following factors in making this decision: (1)
whether the defendant is asserting a constitutional right, (2) whether the defendant has a
legitimate reason for asserting the right, such as a bona fide dispute with his attorney, (3)
whether the defendant was negligent is asserting his right, (4) whether the defendant is

2

n
merely attempting to delay trial, and (5) whether the defendant demonstrated prejudice
resulting from the trial court's decision. Appointment of substitute counsel is warranted
only upon a showing of good cause and where substitution will not unreasonably disrupt
the judicial process. People v Ginther, 390 Mich 436, 441 (1973). In Peoplev
Hernandez, 84 Mich App 1, 7 (1978), the Court stated that "[t]here is no precise
definition of good cause in the context of substitution of counsel, and the resolution of
this issue must be found in the circumstances surrounding each case, particularly in the
reasons presented to the trial judge at the time the request is made."
While it is clear that the relationship between defendant and his counsel was
strained that alone does not establish a bona fide dispute. The record does not show an
abuse of discretion in the trial court’s refusal to substitute trial counsel. It is not
uncommon for a defendant to file a grievance to try to force certain behavior from his
attorney. This does not automatically require the end of the attorney/client relationship.
The attorney that represented this defendant at trial was competent, effective and
prepared for trial. The defendant has not demonstrated that he has suffered any prejudice
as a result of his appointed counsel’s representation as required by Strickland v
Washington, 466 US 668 (1984).
The rest of the defendant’s motion argues that his attorney should have presented
the defense theory that the defendant was too intoxicated to form the requisite intent of
premeditation and deliberation to sustain a first-degree murder conviction. He argues
that his trial attorney was ineffective for failing to call alibi witnesses and allow the
defendant to testify that he was very intoxicated by drugs and alcohol at the time of the

3

n

o

shooting. He also claims that his appellate counsel was ineffective for not bringing this
issue on direct appeal.
The defendant’s contention that the defense of intoxication would have resulted in
' a different result at trial is without merit. The Court of Appeals has previously ruled that
there was sufficient evidence of premeditation and deliberation shown by his actions
prior to and following the killing. The Court pointed to the facts that the defendant
aimed himself with a rifle, searched for the people he intended to shoot, attempted to
conceal his identity with a bandana covering part of his face, and after the shooting told
his friend'that he had killed the decedent. This is ample evidence of premeditation and
deliberation and the defendant’s intoxication theory would have been insufficient to rebut
those findings. No reasonable juror could have found that the defendant was too
intoxicated to be cognizant of what he was doing when he armed himself, searched out
his victim, concealed his identity and told his friend that he had killed the victim.
The defendant has failed to show that his trial attorney was ineffective for failing
to present an intoxication defense, or that his appellate attorney was ineffective for failing
to present on direct appeal a claim of ineffective assistance at trial. The required showing
of prejudice has not been established because the defendant cannot show that but-for his
trial attorney’s failure to present an intoxication defense, the result of his trial would have
been different.
The defendant’s motion for relief from judgment is DENIED for all the reasons
stated above.

4

n
The defendant’s motion for an evidentiary hearing on the issue of ineffective
assistance of counsel is DENIED for failure to establish entitlement under MCR
6.508(D).
The defendant’s Complaint for Malpractice and Request for Discovery are civil
matters and axe therefore returned without filing for improper venue.
IT IS SO ORDERED.

Dated:

AnW. iUIpoL

Circuit Court Judge

5

tlVf\

